                           U.S. Department of Agriculture

                              Office of Inspector General
                                     Great Plains Region




                Audit Report
  Animal and Plant Health Inspection Service
Controls Over Pilot Qualification and Suitability




                                 Report No. 33099-8-KC
                                       September 2009
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                       Washington, D.C. 20250




DATE:          September 30, 2009

REPLY TO
ATTN OF:       33099-8-KC

TO:            Cindy J. Smith
               Administrator
               Animal and Plant Health Inspection Service

ATTN:          Dr. Gregory Parham
               Deputy Administrator
               Marketing and Regulatory Programs Business Services

FROM:          Robert W. Young             /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Controls Over Pilot Qualification and Suitability


This report presents the results of the subject audit. Your response to the official draft report,
dated September 30, 2009, is included as exhibit A. Your response and the Office of the
Inspector General’s position are incorporated into the Findings and Recommendations section of
the report. Based on your response, we were able to reach management decisions on all of the
report’s four recommendations. Please follow your internal agency procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Animal and Plant Health Inspection Service: Controls Over Pilot Qualification and
Suitability (Audit Report 33099-8-KC)

Results in Brief                    This report presents the results of our review of controls over the
                                    qualifications and suitability of pilots used by Animal and Plant Health
                                    Inspection Service (APHIS). APHIS uses owned, leased, or rented
                                    aircraft flown by its employees and contractors for conducting aerial
                                    hunting and administering pest control programs.

                                    Our objective was to determine if APHIS had adequate controls to
                                    ensure that pilots flying agency owned or contracted aircraft are
                                    qualified and do not pose a security threat. As a result of our review, we
                                    concluded that APHIS had sufficient management controls to ensure that
                                    its employee and contracted pilots were properly qualified and trained to
                                    fly agency missions. However, we found that APHIS had not
                                    implemented controls to ensure that its pilots do not pose security risks
                                    because the U.S. Department of Agriculture (USDA) did not provide the
                                    specific department-wide guidance necessary for APHIS to establish
                                    effective controls over its pilot background investigation policies.

                                    Specifically, we identified three weaknesses in APHIS’ handling of
                                    background investigations for its employee and contract pilots:

                                            •     APHIS classified 119 of its employee and contracted pilots as
                                                  non-sensitive positions 1 rather than the moderate level of risk 2
                                                  sensitivity recommended in a departmental report.3 In doing so,
                                                  it subjected them to a level of background investigation lower
                                                  than other USDA aviation programs, such as those operated by
                                                  the Agriculture Research Service and Forest Service, required
                                                  for their pilots. APHIS officials stated they were not aware of
                                                  specific departmental guidance recommending that APHIS
                                                  upgrade the risk sensitivity designations given to its pilots.
                                                  Because APHIS’ pilots perform duties comparable to pilots
                                                  flying missions for other USDA agencies, we concluded they
                                                  should also be designated as moderate risk and receive the
                                                  appropriate corresponding background investigations.

                                            •     APHIS did not require either Wildlife Services’ (WS) or Plant
                                                  Protection and Quarantine’s (PPQ) 81 contracted pilots who fly

1
  Non-sensitive, low risk positions involve duties and responsibilities of limited relation to an agency or program mission, so the potential for
impact on the integrity and efficiency of the service is limited.
2
  Moderate risk positions have moderate to serious impact on the integrity and efficiency of the service. Duties involved are considerably
important to the agency or program mission with significant program responsibility, or delivery of service.
3
  “The Status of USDA Personnel Security: Working Towards an Effective Human Reliability Program,” dated July 31, 2002.

USDA/OIG-A/33099-8-KC                                                                                                                  Page i
                                               missions in the United States to undergo background
                                               investigations. Officials in PPQ’s aviation office informed us
                                               they were unaware of procedures requiring all contract pilots
                                               receive background investigations and appropriate clearances.
                                               Prior to our audit, WS officials did not realize their contract
                                               pilots should have received background investigations because
                                               they were unaware of guidance that required background
                                               investigations of its contract pilots.

                                         •     APHIS did not complete mandatory, lower level background
                                               investigations for 7 of 38 WS and PPQ employee pilots. At the
                                               time of our review, APHIS had not implemented a control to
                                               monitor personnel promoted into pilot positions and ensure
                                               they received the required background investigations. APHIS
                                               subsequently completed the background investigations for
                                               these seven employees.

                                 Because of these oversights, we concluded that APHIS was not in
                                 compliance with USDA Departmental Administration recommendations,
                                 the Office of Personnel Management’s (OPM) requirements for
                                 establishing the suitability of competitive (civil) service employees, and
                                 Homeland Security Presidential Directives (HSPD)-11 and -12. 4

                                 In response to our review, APHIS has taken prompt corrective action to
                                 complete background investigations for all of its employee pilots, and
                                 WS now requires background investigations for all contract pilots who
                                 meet or exceed an aggregate 180 days of flight time per year. PPQ
                                 continues to rely on the guidance of the contracting officer who advised
                                 that the Federal Acquisition Regulation did not require background
                                 checks for PPQ’s contract pilots. This contract specialist further stated
                                 background checks are only added to an aerial service contract if
                                 requested by the program or the APHIS Security Officer, or required by
                                 HSPD-12. His understanding was that the flights were over rural areas
                                 and that these contract pilots rarely had access to Government buildings,
                                 equipment, or sensitive information; therefore, the aerial services
                                 contracts did not fall under HSPD-12. However, we determined that for
                                 one current PPQ contract, pilots both fly over residential areas and have
                                 access to Government facilities because their flights originate from an
                                 active Army airstrip.

                                  During our review, USDA issued a Department Regulation (DR) and a
                                  Department Manual (DM) 5 clarifying background investigation

4
  HSPD-11, Comprehensive Terrorist-Related Screening Procedures; HSPD-12, Policy for a Common Identification Standard for Federal
Employees and Contractors, signed by the President on August 27, 2004.
5
  USDA DR 4620-2, “Common Identification Standard for U.S. Department of Agriculture Employees and Contractors,” dated January 14, 2009.
USDA DM 4620-2, “Common Identification Standard for U.S. Department of Agriculture Employees and Contractors,” dated January 14, 2009.

USDA/OIG-A/33099-8-KC                                                                                                         Page ii
                     requirements. However, APHIS will need to ensure that its employee
                     and contracted pilots are classified consistent with other USDA aviation
                     programs.

Recommendations
In Brief        We recommend that APHIS coordinate with USDA Departmental
                Administration to determine what level of background investigations are
                adequate for its employee and contracted pilots. Pending this
                coordination, APHIS should designate these positions as moderate risk
                and obtain that level of background investigation warranted. APHIS
                should also strengthen its procedures to ensure all of its employee and
                contractor pilots receive background investigations as applicable.

APHIS Response       APHIS generally agreed with the report’s four recommendations. We
                     have incorporated the APHIS response in the Findings and
                     Recommendations section of the report, along with the Office of
                     Inspector General (OIG) position. APHIS’ response to the official draft
                     report is included in its entirety as exhibit A.

OIG Position         Based on APHIS’ response, we were able to reach management decision
                     on all of the report’s four recommendations.




USDA/OIG-A/33099-8-KC                                                                Page iii
Abbreviations Used in This Report


APHIS               Animal and Plant Health Inspection Service
CFR                 Code of Federal Regulations
DM                  Departmental Manual
DR                  Departmental Regulation
FY                  Fiscal Year
HRD                 Human Resources Division
HSPD                Homeland Security Presidential Directive
LBI                 Limited Background Investigation
MBI                 Minimum Background Investigation
MRP-BS              Marketing and Regulatory Programs – Business Services
NACI                National Agency Check with Inquiries
OIG                 Office of Inspector General
OPM                 Office of Personnel Management
PDSD                Personnel and Document Security Division
PPQ                 Plant Protection and Quarantine
USDA                U. S. Department of Agriculture
WS                  Wildlife Services




USDA/OIG-A/33099-8-KC                                                       Page iv
Table of Contents

Executive Summary ....................................................................................................................... i 

Abbreviations Used in This Report ............................................................................................ iv 

Background and Objectives ......................................................................................................... 1 

Findings and Recommendations.................................................................................................. 5 

    Section 1. APHIS Pilots Background Investigations Were Inadequate or Nonexistent .... 5 

        Finding 1  APHIS Pilot Suitability Determinations Not Consistent With Other
                     USDA Aviation Programs ............................................................................. 5 
                          Recommendation 1 ................................................................................ 8 
                          Recommendation 2 ................................................................................ 8 
        Finding 2  Not All APHIS Contracted Pilots Received Background Investigations........... 9 
                          Recommendation 3 .............................................................................. 11 
        Finding 3  APHIS Employee Pilots Did Not Receive Required Background
                     Investigations .............................................................................................. 12 
                          Recommendation 4 .............................................................................. 13 

Scope and Methodology .............................................................................................................. 15 

Exhibit A – Agency Response .................................................................................................... 17 




USDA/OIG-A/33099-8-KC                                                                                                            Page v
Background and Objectives
Background                          The U.S. Department of Agriculture’s (USDA) Animal and Plant Health
                                    Inspection Service (APHIS) protects America’s animal and plant resources
                                    by (1) safeguarding resources from exotic pests and diseases;
                                    (2) monitoring and managing agricultural pests and diseases existing in the
                                    United States; (3) resolving and managing trade issues related to animal
                                    and plant health; and (4) ensuring humane care and treatment of animals.
                                    To support its mission, the agency uses owned, leased, or rented aircraft
                                    flown by licensed pilots. Specifically, APHIS’ Wildlife Services (WS)
                                    relies on aircraft for such activities as aerial hunting, conducting aerial
                                    censuses of waterfowl or other animals, and curtailing damage to
                                    agricultural products caused by wild mammals or birds. APHIS’ Plant
                                    Protection and Quarantine (PPQ) uses aircraft to administer pest control
                                    programs, apply treatment for emergency pest outbreaks, and disperse
                                    sterile insects. A total of 38 employee and 81 contractor pilots flew
                                    missions for WS and PPQ in fiscal year (FY) 2006.

                                    The Office of Personnel Management (OPM) requires APHIS’ employee
                                    and contracted pilots, as well as all other individuals appointed to
                                    positions in the competitive (civil) service, to undergo an investigation and
                                    periodic reinvestigations to establish their suitability for employment or
                                    working for the Government under contract. Agencies are responsible for
                                    designating risk levels for every competitive service position within the
                                    agency. These determinations are based on the position’s documented
                                    duties and responsibilities. Agencies are to ensure that employees or
                                    contractors have the appropriate background investigation commensurate
                                    with the position and subsequent reinvestigations. There are three
                                    categories of designations applicable to Federal agencies. Each position is
                                    designated at a low, moderate, or high risk level depending on the
                                    position’s potential for adverse impact to the efficiency and integrity of
                                    the service. 6 The first category or low risk level positions are non-sensitive
                                    positions involving duties and responsibilities of limited relation to an
                                    agency or program mission, so the potential for impact on the integrity and
                                    efficiency of the service is limited. Personnel in these positions are subject
                                    to a National Agency Check with Inquiries (NACI).

                                    A NACI is the basic and minimum investigation required of all new
                                    Federal employees and contractors. It consists of searches of OPM’s
                                    Security/Suitability Investigations Index, 7 the Defense Clearance and



6
 5 Code of Federal Regulations (C.F.R.) § 731.106.
7
 The Security/Suitability Investigations Index includes information from the subject, interviews of other individuals in relation to him or her, and
other sources such as databases, websites, etc., to verify and confirm information provided by the subject.

USDA/OIG-A/33099-8-KC                                                                                                                    Page 1
                                    Investigations Index, 8 the Federal Bureau of Investigations Name Check,
                                    the Federal Bureau of Investigations National Criminal History
                                    Fingerprint check, the Federal Bureau of Investigations Terrorist
                                    Screening Database, and other files or indices when necessary. A NACI
                                    also includes written inquiries and searches of records covering specific
                                    areas of an individual’s background during the past five years (i.e., current
                                    and past employers, schools attended, references, and local law
                                    enforcement authorities).

                                    The second and third categories are moderate and high risk level positions
                                    and typically referred to as “Public Trust” positions. 9 Personnel occupying
                                    public trust positions must undergo a minimum background investigation
                                    (MBI), a limited background investigation (LBI), or a background
                                    investigation. 10 Moderate risk positions within this category have the
                                    potential for moderate to serious impact on the integrity and efficiency of
                                    the service because they involve duties of considerable importance to the
                                    agency or program mission. Employees holding moderate risk public trust
                                    positions must undergo either a MBI or LBI. Positions considered to be
                                    high risk within this category have the potential for exceptionally serious
                                    impact on the integrity and efficiency of the service. The duties involved
                                    are especially critical to the agency or program mission and carry with
                                    them a broad scope of responsibility and authority. Those in high risk
                                    public trust positions must undergo a background investigation.

                                    In addition to passing the appropriate background investigation, pilots
                                    flying missions for APHIS must meet other requirements. While aircraft
                                    owned by the federal government and operated by government pilots are
                                    not subject to Federal Aviation Administration supervision, APHIS
                                    requires all of its pilots to have a current Federal Aviation Administration
                                    pilot certificate with appropriate qualification ratings for the equipment to
                                    be used, a current physical performed by a Federal Aviation
                                    Administration certified physician, and a biennial flight check. These
                                    requirements generally correspond to Federal aviation regulations for the
                                    lowest level of commercial pilots. 11 Additionally, to determine if a pilot is
                                    qualified to fly missions for APHIS, WS collects information on the
                                    pilot’s medical certification, license, general aviation hours of flight, and
                                    hours flown at low altitudes. However, for pilots performing operations
                                    requiring other skills, such as bait distribution, Federal regulations for


8
   The Defense Clearance and Investigation Index is composed of investigations conducted by Department of Defense investigative organizations,
locator references to such investigations, and security clearances granted by Department of Defense components.
9
   Public Trust positions may involve policy-making, major program responsibility, public safety and health, law enforcement duties, fiduciary
responsibilities, or other duties demanding a significant degree of public trust.
10
   A MBI covers the same areas as a NACI, but also includes a personal subject interview. In addition to all the features of MBI, LBI includes court
records verification (e.g., any felony convictions, etc.), and a check of developed references, which are the names mentioned during an investigator’s
talks with the references provided by the person being investigated. A background investigation features the coverage of the LBI and a check of the
individual’s official personnel folder.
11
   14 C.F.R. Part 91.

USDA/OIG-A/33099-8-KC                                                                                                                      Page 2
                                    flying above 500 feet apply. 12 The requirements for higher altitude flying
                                    cover the piloting of larger aircraft and include an annual, as opposed to
                                    biennial, flight check. For its contracted pilots, WS either specifies
                                    minimum qualifications 13 or the contractor is responsible for obtaining, at
                                    its expense, necessary permits and licenses to comply with the applicable
                                    Federal, State, and local laws and regulations. PPQ requires its pilots to
                                    have, at minimum, a Commercial Pilots license. The head of PPQ aviation
                                    maintains copies of the pilot’s certificate, flight review (conducted every
                                    24 months) and flight medical evaluation (every 12 months).

                                    USDA issued the Integrated Physical Security Standards and Procedures
                                    Handbook on November 14, 2003. The handbook provides a general guide
                                    for the securing of USDA assets within the Department.
                                    Chapter 5, Personnel Security, disseminates procedures for mitigating
                                    risks and threats associated with contract employees who have the same
                                    level of access as USDA employees to USDA sites, information, and
                                    resources to determine their suitability for such access.

                                    APHIS’ Marketing and Regulatory Programs-Business Services
                                    (MRP-BS) managers and its Human Resources Division (HRD) personnel
                                    are responsible for determining the sensitivity of the agency positions and
                                    designating the risk level and minimum investigation needed of APHIS’
                                    positions (i.e., airplane pilot) and ensuring that employees have the
                                    appropriate background investigations commensurate with their positions.
                                    MRP-BS HRD Personnel Security Staff is responsible for collecting and
                                    reviewing all security clearance forms for accuracy and submitting them to
                                    USDA’s Personnel and Document Security Division (PDSD) or OPM.
                                    OPM performs the background investigation, but PDSD is responsible for
                                    granting the appropriate security clearance to USDA employees or
                                    contractors.

                                    At the request of the former Deputy Secretary, PDSD completed the first
                                    ever Department-wide personnel security assessment. PDSD’s report “The
                                    Status of USDA Personnel Security: Working Towards an Effective
                                    Human Reliability Program,” was issued on July 31, 2002, and contained
                                    a recommendation to upgrade the security risk designation of 93 of
                                    USDA’s 95 pilots to a moderate risk designation.

                                    In addition, like all other Federal employees and contractors, APHIS pilots
                                    are also subject to the policies established in Homeland Security
                                    Presidential Directive (HSPD)-11 and HSPD-12 14 issued on

12
   14 C.F.R. Part 135.
13
    Minimum qualifications include a commercial pilot certificate, a second-class airman medical certificate, and the required number of flight hours.
To be eligible for a second-class airman medical certificate, a pilot must be examined by an aviation medical examiner and satisfy the eye, ear, nose,
throat, equilibrium, mental, neurologic, and cardiovascular standards, as well as other general medical standards detailed in 14 C.F.R. Part 67.
14
    HSPD-11, Comprehensive Terrorist-Related Screening Procedures; HSPD-12, Policy for a Common Identification Standard for Federal
Employees and Contractors, signed by the President on August 27, 2004.

USDA/OIG-A/33099-8-KC                                                                                                                      Page 3
                                   August 27, 2004. During our review, USDA issued its Departmental
                                   Regulation (DR) and Departmental Manual (DM) 15 providing the
                                   Department’s     specific  policies   and     procedures    regarding
                                                                                         16
                                   HSPD-12 compliance for personal identity verification. In accordance
                                   with requirements in the DM, employees and contractors must undergo a
                                   NACI, at a minimum.

Objective                          We conducted this audit to determine if APHIS had adequate management
                                   controls to ensure that pilots flying agency owned or contracted aircraft
                                   are qualified and do not pose a security threat.




15
   USDA DR 4620-2, “Common Identification Standard for U.S. Department of Agriculture Employees and Contractors,” dated January 14, 2009.
USDA DM 4620-2, “Common Identification Standard for U.S. Department of Agriculture Employees and Contractors,” dated January 14, 2009.
16
   HSPD-12 required a common identification standard for Federal employees and contractors, and directed the Department of Commerce to develop
a Federal Information Processing Standards publication to define such a common identification credential. Federal Information Processing Standard
201, “Personal Identity Verification of Federal Employees and Contractors,” was developed to satisfy the requirements of HSPD-12, approved by
the Secretary of Commerce, and issued on February 25, 2006.

USDA/OIG-A/33099-8-KC                                                                                                                  Page 4
Findings and Recommendations
Section 1. APHIS Pilots Background Investigations Were Inadequate or Nonexistent

                                     We identified three control weaknesses in APHIS’ handling of
                                     background investigations for its employee and contracted pilots:

                                             •     APHIS improperly classified 119 pilots between FYs 2006 and
                                                   2008. These pilots received a lower risk designation than pilots
                                                   who flew comparable missions for other USDA aviation
                                                   programs, such as those operated by the Agriculture Research
                                                   Service and Forest Service.
                                             •     APHIS did not ensure that contracted pilots received the lower
                                                   level background investigations commensurate with the
                                                   classification.
                                             •     APHIS did not ensure that employee pilots received the lower
                                                   level background investigations commensurate with the
                                                   classification.

                                     This occurred because USDA did not provide the specific
                                     department-wide guidance APHIS needed to establish effective controls
                                     over its pilot background investigation policies. In its PDSD report, the
                                     Department recommended that APHIS and Forest Service upgrade the
                                     sensitivity designation for nearly all of their pilots. Due to its sensitive
                                     nature, PDSD limited distribution of the report, but provided instructions
                                     on how to obtain a copy in its newsletter. Because of the report’s limited
                                     distribution and the method used to convey the instructions on how to
                                     obtain the report, responsible APHIS officials did not know about the
                                     report or its recommendation. As a result of these oversights, APHIS was
                                     not in compliance with OPM’s requirements for establishing the suitability
                                     of competitive (civil) service employees or Presidential Directives and
                                     could not be confident that its pilots did not pose a security threat.

                                     APHIS has since initiated corrective actions to address the weaknesses we
                                     identified.


Finding 1                              APHIS Pilot Suitability Determinations Not Consistent With
                                       Other USDA Aviation Programs

                                       We found that APHIS did not properly classify the sensitivity of the
                                       positions held by its employee and contracted pilots. Specifically, for
                                       FY 2006, it did not properly classify the 38 employee and 81 contracted
                                       pilots. 17 Although the Department’s PDSD report recommended that
17
     For FY 2008, APHIS had 37 employee pilots and 60 contracted pilots.

USDA/OIG-A/33099-8-KC                                                                                       Page 5
                                     APHIS and Forest Service upgrade the sensitivity designation of all their
                                     pilots to moderate risk, APHIS only classified its pilots as non-sensitive,
                                     low risk positions. 18 Therefore, APHIS did not ensure that its pilots
                                     received adequate background investigations like those received by pilots
                                     in other USDA aviation programs who fly comparable missions. APHIS
                                     officials stated they were not aware of the report, and we could not
                                     confirm that the Department communicated the recommendation to
                                     APHIS. As a result, APHIS was not in compliance with Department
                                     requirements for classifying employee and contract pilots and had
                                     reduced assurance that its pilots did not pose a security risk.

                                     The Department’s PDSD report, dated July 31, 2002, “The Status of
                                     USDA Personnel Security: Working Towards an Effective Human
                                     Reliability Program,” provided the progress made on improving USDA’s
                                     personnel security program and the challenges confronting the
                                     Department and its agencies in establishing an effective personnel
                                     security program. The analysis was presented in three descending sets of
                                     priorities. Priority I personnel were those involved in national or
                                     homeland security. Priority II personnel were those in Public Trust
                                     positions not associated with national or homeland security, and
                                     Priority III personnel included all other USDA personnel and contractors.
                                     The report noted that USDA had a total of 95 aircraft pilots of which
                                     2 were designated as noncritical-sensitive positions 19 and 93 were
                                     designated as non-sensitive, low risk positions. These 95 pilots included
                                     32 APHIS pilots, 2 Agriculture Research Service pilots, and 61 Forest
                                     Service pilots. The report recommended that APHIS and Forest Service
                                     upgrade their 93 non-sensitive pilots to the moderate level of risk
                                     sensitivity and obtain MBI for them. However, the report did not provide
                                     any specific recommendations regarding the risk levels for contracted
                                     pilots or the type of background investigations required for them.

                                     Forest Service now requires MBIs for its employee pilots, pilots
                                     contracted for more than 180 days, and pilots working under yearly
                                     exclusive use contracts. Because they fly over houses, and because of
                                     other mission requirements, Agriculture Research Service pilots must
                                     undergo a more intensive background investigation. However, we found
                                     that APHIS MRP-BS continued to classify the agency’s pilots as low-risk
                                     non-sensitive positions requiring background investigations at the NACI
                                     level. The MRP-BS based these position designations on a matrix revised
                                     in April 2005 by OPM and findings reported by an APHIS aviation task
                                     force that met in 2005 to explore and implement medical, psychological,
                                     and background evaluations appropriate to WS aviation activities. In its

18
  See footnote 1.
19
  All positions with National Security duties and responsibilities must have a sensitivity level designation to assure that personnel receive the
appropriate level of investigative screening. A sensitivity level designation is based on an assessment of the degree of damage that an individual
could cause to National Security. Persons in noncritical-sensitive positions could inflict serious damage to National Security.

USDA/OIG-A/33099-8-KC                                                                                                                   Page 6
                                    final report 20 to WS management, the task force recommended that
                                    APHIS pilots continue to undergo NACIs consistent with the low risk or
                                    non-sensitive position designation.

                                    An official in the WS national office stated that personnel in the staff
                                    offices in Riverdale, Maryland, and the Aviation Training and Operations
                                    Center in Cedar City, Utah, were not provided the July 2002 report by
                                    PDSD. Therefore, APHIS was not aware of the report’s recommended
                                    position designation for pilots. In addition, a MRP-BS classifier who
                                    served on APHIS’ internal 2005 aviation task force told us that the
                                    PDSD’s report’s contents were not discussed during the meetings held
                                    for the APHIS study. The classifier further stated that he was unaware of
                                    the PDSD report and/or its recommendations until we questioned him
                                    about it during our audit. However, our review noted that although a
                                    USDA Personnel Security Newsletter provided a brief summary of the
                                    PDSD report in its FY 2002, fourth quarter issue, PDSD advised readers
                                    in the newsletter that it would not publish the report on its website
                                    because of the sensitive nature of its contents. Instead, it advised that
                                    those interested in receiving a copy could request one from PDSD. The
                                    PDSD official interviewed could not confirm whether the report,
                                    completed during her predecessor’s term, had been distributed to USDA
                                    agencies, especially APHIS. However, the official said PDSD still agrees
                                    with the report’s recommendation that APHIS needs to upgrade its pilots’
                                    position designations to the moderate level of risk sensitivity and request
                                    MBIs for them.

                                    In contrast to APHIS, employee and contracted pilots for other USDA
                                    agencies receive more extensive background investigations because these
                                    agencies had designated their positions at higher sensitivity levels
                                    consistent with the cited PDSD report recommendations. For example,
                                    Forest Service designated all of its employee pilots and contract pilots of
                                    tankers as moderate level public trust positions and required these
                                    personnel to undergo MBIs to provide increased assurance that its pilots
                                    do not pose a security risk. Similarly, the Agriculture Research Service
                                    considers its pilots to hold moderate level Public Trust positions.
                                    Therefore, its pilots must pass a pre-employment special agreement
                                    check; 21 after initial hiring, these pilots then must undergo a background
                                    investigation. According to an Agriculture Research Service’s Human
                                    Resources specialist, the agency subjects its pilots to a more extensive
                                    review due to the pilots flying over congested or populated areas
                                    (houses), as well as other mission requirements.



20
  The report was not dated, but we were advised that it was issued on or about February 28, 2006.
21
  Agencies use special agreement check forms to request limited investigations, or checks, of persons in positions for which there is a special
agreement with OPM that permits and specifies alternative procedures to meet investigative requirements.

USDA/OIG-A/33099-8-KC                                                                                                                Page 7
Recommendation 1

                   Coordinate with USDA Departmental Administration on (1) the proper
                   risk level or position classification for pilots employed by or contracted
                   for all APHIS aviation programs, and (2) complete the appropriate
                   background investigations for the classification established.

                   APHIS Response.

                   APHIS agreed with the recommendation. APHIS plans to coordinate
                   with USDA Departmental Administration to determine the proper risk
                   level and/or position classification for pilots employed by or contracted
                   for APHIS’ aerial operations. APHIS’ HRD and National Aviation
                   Working Group will review the PDSD report. Further, APHIS HRD and
                   the National Aviation Working Group will conduct a thorough review of
                   applicable policy and/or guidance contained in current editions of the
                   USDA Integrated Physical Security Standards and Procedures Handbook,
                   HSPD 11 and HSPD 12, and the Federal Information Processing
                   Standard 201. From this collaboration, the group will submit a report
                   and recommendations to APHIS’ management on pilot classifications.
                   APHIS’ HRD will complete the appropriate background investigations
                   for the classification established. APHIS anticipates having the review
                   and background investigations completed by January 29, 2010.

                   OIG Position.

                   We accept APHIS’ management decision.

Recommendation 2

                   In the interim, designate the agency’s present employee and contractor
                   pilot positions as moderate risk and obtain at least an MBI level
                   background investigation for them.

                   APHIS Response.

                   APHIS agreed in part with the recommendation. APHIS stated that the
                   current level of background investigations, NACI, is currently used to
                   review the proper risk level or position classification for employee pilots
                   or contractor pilots. Once the review mentioned in response to
                   Recommendation 1 is completed, and recommendations submitted and
                   approved, APHIS will assign the appropriate level of risk and require the
                   associated level of background investigation to be completed, by
                   January 29, 2010. APHIS’ view was that making a carte blanche
                   designation across the board for all employee pilots and contractor pilots
                   as moderate risk would not be prudent at this time because all of aerial
USDA/OIG-A/33099-8-KC                                                                  Page 8
                                    operations in the Western Region, and certain parts of the Eastern
                                    Region, are solely conducted with single-engine, two-place aircraft, or
                                    turbine helicopters and are flown solely over rural areas. APHIS stated
                                    that only one aerial operations program based in the Eastern Region
                                    conducts operations with a small to medium sized twin-engine aircraft,
                                    and is routinely flown over residential areas for approximately six
                                    months out of the year.

                                    OIG Position.

                                    Based on APHIS’ planned corrective actions for Recommendation 1 to
                                    be completed by January 29, 2010, we accept the management decision.


Finding 2                           Not All APHIS Contracted Pilots Received Background
                                    Investigations

                                    In FY 2006, neither PPQ’s nor WS’ aviation programs required its
                                    contracted pilots flying missions in the United States to undergo
                                    background investigations. Officials in PPQ’s aviation office informed us
                                    they were unaware of procedures requiring all contract pilots receive
                                    background investigations and appropriate clearances. Prior to receiving
                                    our engagement letter, WS officials did not realize their contract pilots
                                    had not received background investigations and/or clearances as required
                                    because they did not receive clear guidance on requirements for
                                    background investigations of contract pilots. As a result, APHIS had no
                                    assurance that the pilots their contractors provided did not pose security
                                    risks.

                                    Federal Acquisition Regulations requires that all contractors that have
                                    routine access to a Federally-controlled facility or information system
                                    undergo a background investigation. In addition, USDA prepared an
                                    Agriculture Acquisition Regulation advisory 22 as a supplement to the
                                    Federal Acquisition Regulation final rule, “Common Identification
                                    Standard for Contractors,” that addresses contractor personal
                                    identification requirements outlined in HSPD-12 and Federal Information
                                    Processing Standard 201. 23 The Agriculture Acquisition Regulation
                                    required USDA agencies to ensure they have completed background
                                    investigations. It also requires contractor employees, such as pilots, to
                                    appear in person in front of a sponsor, who is generally the contracting
                                    officer’s representative, and provide a number of documents evidencing


22
  Agriculture Acquisition Regulation Advisory No. 81, “Common Identification Standard for Contractors,” April 26, 2006.
23
  Federal Information Processing Standard 201, “Personal Identity Verification of Federal Employees and Contractors,” was developed to satisfy
the requirements of HSPD-12, approved by the Secretary of Commerce, and issued on February 25, 2005.

USDA/OIG-A/33099-8-KC                                                                                                               Page 9
                                     their fitness for employment. 24 The Federal Acquisition Regulation also
                                     requires the contracting officer to include an identity verification clause
                                     in solicitations and contracts.

                                     In November 2003, USDA issued the Integrated Physical Security
                                     Standards and Procedures Handbook. The manual provides coordinated
                                     and uniform USDA procedures for requiring contractors performing
                                     work for USDA to obtain security clearances and/or suitability for
                                     employment determinations. Chapter 5 of the manual provides
                                     procedures for mitigating risks and threats associated with contract
                                     employees who have the same level of access as USDA employees to
                                     USDA sites, information, and resources to determine their suitability for
                                     such access. More specifically, Chapter 5 provides, in part, that
                                     contracting officers ensure that solicitations and procurement
                                     documentation contain language sufficient to require investigation of
                                     contractor employees, if required.

                                     Our review showed that in FY 2006, PPQ did not require its
                                     17 contracted pilots to undergo background investigations because
                                     aviation office officials said they were not aware of procedures requiring
                                     security clearances or suitability determinations. During our review, we
                                     noted that PPQ required pilot background investigations for only one of
                                     six contract solicitations for FY 2007 even though an APHIS contract
                                     specialist asserted he was including the clause requiring background
                                     checks in aerial services contracts. For FY 2008, this contract specialist
                                     stated background checks are only added to an aerial service contract if
                                     requested by the program or the APHIS Security Officer, or required by
                                     HSPD-12. His understanding was that the flights were over rural areas
                                     and that these contract pilots rarely had access to Government buildings,
                                     equipment, or sensitive information; therefore, the aerial services
                                     contracts did not fall under HSPD-12. However, one current PPQ
                                     contract that has been in effect since FY 2005 requires pilots to fly
                                     missions over houses and residential areas. In addition, pilots associated
                                     with this contract would have access to Government buildings,
                                     equipment, or sensitive information because flights originate from an
                                     active Army airfield.

                                     WS officials stated that they had not received clear guidance from the
                                     Department on several issues regarding background investigations:
                                     (1) whether their contracted pilots needed background investigations;
                                     (2) what level of background investigation should be required if they
                                     were determined necessary; (3) whether background investigations for
                                     particular contracted pilots should be based on mission type, mission

24
  These documents include a Fair Credit Reporting Release, Fingerprint Charts (2 FD-258), two identity source documents, such as a current State
Drivers License, a Declaration for Federal Employment (OF-306), and either a Questionnaire for Non-sensitive Positions (SF-85), Questionnaire for
Public Trust Positions (SF-85P), or a Questionnaire for National Security Positions (SF-86).

USDA/OIG-A/33099-8-KC                                                                                                                Page 10
                   location, or the length and dollar amount of the contract; and (4) how to
                   respond to contractors questioning the need for their pilots to receive
                   NACIs. While HSPD-12, the Agriculture Acquisition Regulation
                   advisory, and the PDSD report address these issues, information relevant
                   to APHIS aviation programs did not reach the WS Regional Director
                   (acting National Aviation Coordinator during our fieldwork), the staff in
                   the regional office, or the head of the PPQ aviation program. During
                   FY 2007, APHIS personnel held discussions with WS Western Regional
                   staff and determined that WS would follow HSPD-12 and require NACI
                   background investigations on contract pilots if they worked over
                   180 days (6 months) as stated in the Agriculture Acquisition Regulation
                   Advisory.

                   WS began requiring background investigations for its contracted pilots
                   during our review, and they began including contract language in their
                   solicitations requiring the contracted pilots to pass a NACI background
                   investigation. With the exception of the one FY 2007 contract, PPQ
                   continued to rely on the guidance of the contracting officer who advised
                   that the Federal Acquisition Regulation did not require background
                   checks for PPQ’s contract pilots.

Recommendation 3

                   Develop and implement management controls to ensure all current and
                   future aerial services contracts specify the background investigations and
                   clearances needed in order to perform aerial services for APHIS.

                   APHIS Response.

                   APHIS agreed with the recommendation. Effective immediately, all new
                   contracts written for aerial service operations will include the clauses
                   required by Federal Acquisition Regulation Part 4, specifically
                   subpart 4.13 and the Agriculture Acquisition Regulation that pilots must
                   obtain and pass a background investigation prior to contract performance.
                   Also, the Statement of Work for pilot qualifications will include the same
                   language that pilots must obtain and pass a background investigation
                   prior to contract performance. Previously written contracts will be
                   modified to include this qualifications statement and the required Federal
                   Acquisition Regulation and Agriculture Acquisition Regulation clauses.
                   In addition, agency specific verification procedures will be included in all
                   contracts by December 31, 2009.

                   OIG Position.

                   We accept APHIS’ management decision.

USDA/OIG-A/33099-8-KC                                                                 Page 11
Finding 3                           APHIS Employee Pilots                              Did       Not        Receive           Required
                                    Background Investigations

                                    We found that 7 of APHIS’ 38 employee pilots had not undergone
                                    background investigations at the time of our on-site visit to MRP-BS in
                                    March 2007. This occurred because WS and PPQ relied on APHIS’ HRD
                                    to monitor and complete background investigations for all employee
                                    pilots. Although APHIS implemented a control to monitor new pilots
                                    during our review, HRD’s Personnel Security Office informed us that it
                                    did not have a control for monitoring personnel promoted into pilot
                                    positions that would ensure they received background investigations.
                                    However, APHIS has since completed background checks for these seven
                                    employee pilots, one of whom subsequently left APHIS in 2007 for the
                                    U.S. Department of Homeland Security. Until it completed all required
                                    background investigations, APHIS had reduced assurance that the pilots
                                    did not pose a security threat.

                                    On January 30, 2007, APHIS MRP-BS, HRD classified the agency’s
                                    Aviation Operations Series, which includes its employee pilots, as
                                    low-risk non-sensitive positions requiring background investigations at
                                    the NACI level.

                                    Form AD-1197, Request for USDA Identification Badge, and its
                                    supplement provides that the request for USDA Identification Badge
                                    contain copies of two identity source documents and that fingerprint
                                    cards be submitted with the employee’s new hire paperwork as instructed
                                    in the MRP-BS, Human Resources Guide to Submitting New-Hire
                                    Paperwork. Information on the form is then used to determine suitability
                                    for the issuance of a USDA Identification badge, as well as to identity
                                    proof 25 and register applicants as part of the government-wide personal
                                    identity verification process. 26 Employees initially hired for positions not
                                    requiring a background investigation, but who have been transferred or
                                    promoted to different appointments, are also to receive background
                                    investigations. 27

                                    We determined that six WS employee pilots and one PPQ employee pilot
                                    were not asked to complete the paperwork to begin a background
                                    investigation and consequently had not undergone NACIs. According to
                                    WS Western Region officials, the six employees had been promoted from
                                    the position of Wildlife Biologist to positions within the aviation series,
                                    which require background investigations. These six employees were

25
   Identity proofing is the process of verifying an individual’s information that he or she is that individual and no other (DR 4620-002 dated
January 14, 2009).
26
   APHIS-MRP-BS HRD Human Resources Processing Section, “Guide to Submitting New-Hire Paperwork,” March 2005.
27
   USDA-APHIS-HRD HR Broadcast newsletter January 2007.

USDA/OIG-A/33099-8-KC                                                                                                             Page 12
                    hired before October 2005; prior to that time, APHIS had no formal
                    process for monitoring pending investigations.

                    Since October 2005, the MRP-BS HRD Personnel Security Office has
                    used an Excel spreadsheet to track the initiation of employee background
                    investigations. The manager enters the new hire into the spreadsheet
                    upon receipt of form AD-1197. This mechanism, however, did not alert
                    MRP-BS when APHIS employees changed positions. Therefore, the
                    MRP-BS HRD Personnel Security Office was not alerted when APHIS
                    employees were promoted to pilot positions requiring background
                    investigations.

                    To rectify the situation, WS Western Region sent its six employee pilots
                    letters requesting they complete and return the paperwork necessary for
                    beginning a background investigation. The Administrative Officer for
                    WS Western Region also created a log to ensure that all steps leading up
                    to a background investigation, such as the submission of proper
                    fingerprint forms, are completed. Since we brought these oversights to
                    the attention of WS, the six pilots received their background
                    investigations.

                    In addition to the six WS pilots, one PPQ pilot also did not receive a
                    background investigation. The head of PPQ aviation could not explain
                    why the background investigation for the pilot had not been done.
                    However, since we brought the oversight to the attention of PPQ, the
                    pilot received the background investigation. Subsequently, in 2007 the
                    pilot left APHIS for the U.S. Department of Homeland Security.

Recommendation 4

                   Strengthen procedures for personnel changes (i.e., promotions to pilot
                   positions) to provide AD-1197 and supporting information to the
                   Personnel Security Office, HRD, MRP-BS, to ensure background
                   investigations are always obtained for all APHIS employee pilots.

                   APHIS Response.

                   APHIS agreed with the recommendation. APHIS stated that existing
                   personnel procedures are in place to ensure all personnel hired as pilots
                   must undergo, are subject to, and must pass a MBI. Such a requirement is
                   posted in every pilot position description and job posting. Further, all
                   current APHIS pilots and those hired directly as pilots, must at a
                   minimum, meet the Individual Occupational Requirements for the General
                   Schedule 2181 (Aircraft Operation Series), as established by OPM. With
                   regards to the audit finding that six employees had been promoted from
                   the wildlife biologist series to the aviation series without the proper
USDA/OIG-A/33099-8-KC                                                               Page 13
                  security clearances, no formal process for monitoring pending security
                  investigations was in place at the time. However, since that time MRPBS
                  HRD’s Personnel Security Office began utilizing a system to track the
                  initiation of employee background investigations. HRD Classification
                  Office has reviewed all APHIS pilot personnel information to ensure
                  sensitivity codes accurately reflect a MBI. If they do not, HRD is
                  initiating background investigations at the required level.

                  OIG Position.

                  We accept APHIS’ management decision.




USDA/OIG-A/33099-8-KC                                                            Page 14
Scope and Methodology
                                   To accomplish our objective, we performed work at the APHIS National
                                   Office in Washington, D.C.; APHIS offices in Riverdale, Maryland; the
                                   WS Western Region office in Fort Collins, Colorado; the Aviation
                                   Training and Operations Center in Cedar City, Utah; and the MRP-BS
                                   office in Minneapolis, Minnesota. Fieldwork was conducted between
                                   January 2007 and February 2009.

                                   As part of our fieldwork, we interviewed appropriate APHIS headquarters
                                   officials and reviewed program records. We also spoke with officials from
                                   OPM, USDA officials from PDSD in Departmental Administration, Forest
                                   Service, Agriculture Research Service, and Farm Service Agency. 28
                                   Additionally, we spoke with the WS State Directors of 12 States; the WS
                                   Assistant State Director of 1 State; PPQ officials; International Services
                                   officials in Guatemala, and Riverdale, Maryland; and a Federal Aviation
                                   Administration manager. The scope of our review was FY 2006.

                                   We reviewed the following to obtain a better understanding of Federal
                                   personnel security requirements and APHIS aviation operations
                                   administration:

                                        •     USDA Integrated Physical Security Standards and Procedures
                                              Handbook, dated November 14, 2003.
                                        •     Agriculture Acquisition Regulation Advisory No. 81, “Common
                                              Identification Standard for Contractors,” April 26, 2006.
                                        •     USDA DR 4620-2, “Common Identification Standard for U.S.
                                              Department of Agriculture Employees and Contractors,” dated
                                              January 14, 2009.
                                        •     USDA DM 4620-2, “Common Identification Standard for U.S.
                                              Department of Agriculture Employees and Contractors,” dated
                                              January 14, 2009.
                                        •     Federal Aviation Regulations, located in 14 C.F.R. Parts 61, 91,
                                              135, and 137.
                                        •     Federal Acquisition Regulation Subpart 4.13; Federal Acquisition
                                              Regulation Clause 52.204-9.
                                        •     7 C.F.R. Part 731, Suitability.
                                        •     50 C.F.R. Part 19, Airborne Hunting.
                                        •     The Economy Act of 1932 (31 United States Code § 1535 and
                                              1536, as amended.


28
  Farm Service Agency’s Aerial Photograph Field Office does not require background investigations of contract pilots. Farm Service Agency aerial
contracts are “Service and Supply” contracts, meaning the burden of Federal Aviation Administration compliance is on the contractor, not Farm
Service Agency. Therefore, they are not included in the results of our review.

USDA/OIG-A/33099-8-KC                                                                                                               Page 15
                        •   Office of Management and Budget Circulars A-76, A-126, and
                            A-11.
                        •   APHIS Aircraft Operations Manual, APHIS 5400-4, dated
                            August 20, 1999.
                        •   APHIS Aviation Security Program, Directive 1650.2, issued
                            February 28, 2006.
                        •   WS Directive 2.260, “WS Aviation Safety and Operations,”
                            revised December 4, 2006.
                        •   WS Aviation Operations Manual, dated May 11, 2004.
                        •   WS draft Security Directive, issued in 2006.
                        •   WS Aviation Safety Manual, dated September 20, 2002.
                        •   PPQ “Aerial Application Manual,” dated April 2002, and interim
                            edition dated October 2006.
                        •   HSPD-11,       Comprehensive       Terrorist-Related    Screening
                            Procedures, signed by the President on August 27, 2004.
                        •   HSPD-12, Policy for a Common Identification Standard for
                            Federal Employees and Contractors, signed by the President on
                            August 27, 2004.
                        •   Federal Information Processing Standard 201, “Personal Identity
                            Verification of Federal Employees and Contractors,” issued on
                            February 25, 2006.

                  We selected the WS aviation program for further review based on its
                  larger number of employee pilots (33) compared to the PPQ aviation
                  program (5) in FY 2006. We then selected the Western Region of the WS
                  for review, rather than the Eastern Region, because all 33 WS employee
                  pilots were based in the Western Region, and its Regional Director was
                  then acting as the National Aviation Coordinator. We randomly selected
                  employee and contract pilots in the Western Region for review of their
                  qualification and training records. We also reviewed Western Region
                  documents showing whether the 33 employee pilots had completed their
                  NACI background investigations. We interviewed PPQ officials in
                  Riverdale, Maryland, and Mission, Texas, to ascertain the requirements
                  for qualifications and background investigations of their pilots.

                  We conducted this performance audit in accordance with government
                  auditing standards. Those standards require that we plan and perform the
                  audit to obtain sufficient, appropriate evidence to provide a reasonable
                  basis for our findings and conclusions based on our audit objectives. We
                  believe that the evidence obtained provides a reasonable basis for our
                  findings and conclusions based on our audit objectives.




USDA/OIG-A/33099-8-KC                                                                Page 16
Exhibit A – Agency Response
                              Page 1 of 3




USDA/OIG-A/33099-8-KC            Page 17
Exhibit A – Agency Response
                              Page 2 of 3




USDA/OIG-A/33099-8-KC            Page 18
Exhibit A – Agency Response
                              Page 3 of 3




USDA/OIG-A/33099-8-KC            Page 19
Informational copies of this report have been distributed to:

Administrator, Animal and Plant Health Inspection Service
 Attn: APHIS Liaison Officer                                    (3)
Government Accountability Office                                (1)
Office of Management and Budget                                 (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division                 (1)
